No. 20-437
INTHE

~upreme ~ourt of toe Wniteb ~tateg
UNITED STATES,

Petitioner,

v.
REFUGIO PALOMAR-SANTIAGO,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 31st day of March, 2021, I caused three copies of the Brief for Former
Executive Office of Immigration Review Judges as Amici Curia,e in Support of
Respondent to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Elizabeth B. Prelogar
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner

Bradley N. Garcia
O'MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300
bgarcia@omm.com

Counsel for Respondent

